         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Hotline Allegations
       Unsubstantiated, but Region 7
       Contract Administration and
       Award Issues Identified

       Report No. 11-P-0217

       May 4, 2011
Report Contributors:                               Michael Petscavage
                                                   David Penman
                                                   Brad Jones
                                                   Doug LaTessa




Abbreviations

ASW           ASW Associates, Inc.
CO            Contracting Officer
D&F           Determination and Finding
DOE           U.S. Department of Energy
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
IDIQ          Indefinite Delivery/Indefinite Quantity
OIG           Office of Inspector General
T&M           Time and Materials




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                        write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                      1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                        Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                  Washington, DC 20460
                      U.S. Environmental Protection Agency 	                                                11-P-0217
                                                                                                           May 4, 2011
                      Office of Inspector General


                      At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review              Hotline Allegations Unsubstantiated, but Region 7
We received a Hotline complaint     Contract Administration and Award Issues Identified
regarding a U.S. Environmental
Protection Agency (EPA)              What We Found
contract with ASW Associates,
Inc. (ASW). The allegations were    The complainant’s allegations were not substantiated. No funds were replaced
that EPA replaced Superfund         on the ASW contract. The contract was solely funded with Superfund
appropriations with American        appropriations and no Recovery Act appropriations were obligated on the ASW
Recovery and Reinvestment Act       contract. Secondly, the ASW contract was not terminated for convenience as
of 2009 (Recovery Act) funds        alleged; EPA simply elected not to exercise the second option.
and that EPA unfairly terminated
the ASW contract.                   EPA could have awarded a less risky contract type. EPA awarded a time and
                                    materials (T&M) contract to ASW, but could have awarded a lower-risk
Background                          fixed-price type contract. According to the contracting officer, Region 7
                                    awarded a T&M contract because the program office was reluctant to use a
EPA awarded ASW a Superfund         fixed-price type contract due to the environmental unknowns surrounding the
contract for environmental          site to be cleaned up.
remediation services in
September 2008. In January          EPA did not perform some required contract administration functions. The
2009, the U.S. Department of        contracting officer did not conduct required annual invoice reviews even
Energy (DOE) suspended ASW          though DOE suspended ASW during the base period of the contract for
from contracting with               submitting invoices with false certifications. Also, EPA did not conduct an
government agencies for             interim contractor performance evaluation despite several performance issues
submitting to them invoices with    that EPA staff identified. The contracting officer cited not having time to
false certifications. EPA awarded   perform the annual invoice reviews or the interim performance evaluations. As
a second contract to a different    a result, Region 7 does not have assurances that the contractor and EPA project
contractor to obtain the same       staff were fulfilling their roles, and other potential clients were not made aware
services, as EPA did not know       of ASW’s performance on this contract.
when DOE would lift the
suspension. The Federal              What We Recommend
Acquisition Regulation prohibits
agencies from renewing with a       We recommend that Region 7 (1) revise the Region 7 peer review checklist to
suspended contractor unless the     require review of the pre-award file to ensure proper documentation and
agency head agrees.                 support for the contract type selected, (2) provide clarification to contracting
                                    officers on T&M contracts and annual invoice reviews, (3) implement a
For further information,
contact our Office of
                                    process to ensure annual invoice reviews are completed by contracting officers,
Congressional, Public Affairs and   and (4) prepare and submit a contractor performance evaluation for the ASW
Management at (202) 566-2391.       contract in the Contractor Performance Assessment Reporting System as
                                    required. EPA Region 7 generally agreed with the recommendations in the
The full report is at:              draft report and provided corrective actions or acceptable alternatives. The
www.epa.gov/oig/reports/2011/
20110504-11-P-0217.pdf              completed and planned actions address the intent of the recommendations in
                                    the report.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                           May 4, 2011

MEMORANDUM

SUBJECT:	 Hotline Allegations Unsubstantiated, but Region 7
          Contract Administration and Award Issues Identified
          Report No. 11-P-0217


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Karl Brooks
               Regional Administrator, Region 7


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $85,533.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations. Therefore, a response to the final report is not required. The Agency should
track corrective actions not implemented in the Management Audit Tracking System. We have
no objections to the further release of this report to the public. The report will be available at
http://www.ega.gov/oig.

If you or your staff have any questions, please contact Melissa Heist, Assistant Inspector General
for Audit, at 202-566-0899 or heist.melissa@epa.gov; or Janet Kasper, Director, Contracts and
Assistance Agreement Audits, at 312-886-3059 or kasper.janet@epa.gov.
Hotline Allegations Unsubstantiated, but Region 7                                                                              11-P-0217
Contract Administration and Award Issues Identified


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


           Complainant Allegations Not Valid .......................................................................                  3

           Region 7 Could Have Used a Less Risky Contract Type .....................................                                  4

           Annual Invoice Review Not Conducted ................................................................                       6

           Contractor Performance Evaluation Not Conducted ...........................................                                7


   Recommendations ......................................................................................................             7


   Agency Response and OIG Comment ......................................................................                             8


   Status of Recommendations and Potential Monetary Benefits..............................                                            9




Appendices
   A       Agency Response to Draft Report....................................................................                       10


   B       Distribution .........................................................................................................    14

Purpose
                  The Office of Inspector General (OIG) of the U.S. Environmental Protection
                  Agency (EPA) receives hotline complaints of fraud, waste, and abuse within EPA
                  programs and operations. In June 2010, a complainant alleged that EPA Region 7
                  possibly replaced appropriated funds for a contract with ASW Associates, Inc.,
                  with American Recovery and Reinvestment Act of 2009 (Recovery Act) funds
                  and used the appropriated funds for another project. The complainant also alleged
                  that EPA terminated an ASW contract for the convenience of the government and
                  awarded a contract to another contractor that had higher rates. Based on the
                  complainant’s allegations, our objectives were to determine whether Region 7:

                          Replaced appropriated funds with Recovery Act funds
                          Terminated the ASW contract for the convenience of the government

Background
                  Region 7 awarded EPA contract number EP-R7-08-15 on September 26, 2008, to
                  ASW to perform a remedial action for lead-contaminated residential property
                  surface soil at the Madison County Mines Superfund site. The contract included a
                  1-year base period and two 1-year option periods. EPA had the choice to exercise
                  the first option after the base period expired and could reassess again before
                  exercising the second option. The maximum value of the contract was
                  $24,345,902. As of November 2010, EPA paid the contractor $5,471,001 for the
                  base period and the first option period. In January 2009, around the same time
                  ASW began remediation work on the Superfund site, the U.S. Department of
                  Energy (DOE) suspended ASW for submitting invoices containing false
                  certifications to the Argonne National Laboratory, a DOE contractor.

                  In February 2009, Region 7 informed ASW that it would likely receive Recovery
                  Act funding, and Region 7 was considering a variety of options to implement the
                  Recovery Act, including exercising one or both of the options on the ASW
                  contract. After becoming aware of the ASW suspension, Region 7 informed ASW
                  that it would have to be removed from the excluded parties list1 before Region 7
                  would decide to exercise the next option period. The Federal Acquisition
                  Regulation (FAR) Subpart 9.405-1(b) prohibits federal agencies from exercising
                  options with suspended contractors unless the agency head makes a compelling
                  reason to justify the action.

                  In March 2009, Region 7 informed ASW that EPA had received Recovery Act
                  funding for the Superfund program and that it was beginning the process to

1
  Provided as a public service by the General Services Administration for the purpose of efficiently and conveniently
disseminating information on parties that are excluded from receiving federal contracts, certain subcontracts, and
certain federal financial and nonfinancial assistance and benefits, pursuant to the provisions of 31 U.S. Code 6101,
note, Executive Order 12549, E.O. 12689, 48 Code of Federal Regulations 9.404, and each agency's codification of
the Common Rule for Nonprocurement suspension and debarment.


11-P-0217                                                                                                          1
            obligate the Recovery Act funding. The goal of the Recovery Act was to obligate
            all funding by September 30, 2009—near the time that the base period of the
            ASW contract would expire. Region 7 stated in the March letter that due to the
            human health risk at the Madison County Mines Superfund site and the need to
            obligate Recovery Act funds quickly, a decision would be made on April 1, 2009,
            whether to exercise the option in the ASW contract. Region 7 contracting staff
            informed the OIG that they contacted DOE to learn if DOE intended to terminate
            the ASW suspension. According to Region 7, DOE did not have plans at that time
            to terminate the suspension.

            In April 2009, Region 7 informed ASW that it would not exercise the first option
            on the ASW contract because FAR 9.405-1(3) does not allow, without compelling
            reasons, exercising options for contracts where the contractor has been suspended.
            Region 7 then began the acquisition process to award a separate contract to a new
            contractor for the same services by executing a determination and finding (D&F)
            for a new contract.

            On August 25, 2009—approximately 1 month before the base period on the ASW
            contract was to expire—DOE terminated the ASW suspension after ASW:
            (1) acknowledged negligence relating to inaccurate billing procedures,
            (2) committed to pay a civil judgment and improve internal controls, and (3)
            agreed to obtain a satisfactory Defense Contract Audit Agency audit. Although
            Region 7 was ready to award the second contract to another contractor to obtain
            the required remediation services in Madison County, it exercised the first option
            period on the ASW contract. According to Region 7 officials, the amount of work
            in Madison County justified two contracts operating simultaneously for 1 year.
            On September 9, 2009, EPA exercised the first option period on the ASW
            contract through a modification of the contract. In that modification, EPA stated
            that the ASW contract would end after the option period expired. EPA awarded a
            second contract to another contractor on September 29, 2009. That contract
            included a 2-year base period and a 1-year option.

Scope and Methodology
            We conducted our review from September to December 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            To accomplish our objectives, we reviewed documents provided by the
            complainant as well as ASW and Region 7. We conducted interviews with the
            complainant; ASW officials; and relevant EPA Region 7 staff in Kansas City,
            Kansas. We reviewed (1) the contracting officer’s (CO’s) pre-award and contract
            file for the ASW contract, (2) communications between Region 7 and ASW,


11-P-0217                                                                                       2
            (3) the award and administration of the ASW contract, and (4) the FAR and
            Agency guidance pertaining to contract award and administration. This included,
            but was not limited to:

                  FAR Subpart 9.4 – Debarment, Suspension, and Ineligibility
                  FAR Part 16 – Types of Contracts
                  FAR Subpart 17.2 – Options
                  EPA Contracts Management Manual

            We reviewed a prior EPA OIG report regarding contractor performance
            evaluations, EPA OIG Report 10-R-0113, EPA Should Improve Its Contractor
            Performance Evaluation Process for Contractors Receiving Recovery Act Funds,
            issued April 26, 2010. In response to one of our recommendations, Office of
            Acquisition Management stated that it planned to begin using the U.S.
            Department of Defense Contractor Performance Assessment Reporting System on
            May 1, 2010, to replace the National Institutes of Health Contractor Performance
            System. According to EPA, the Contractor Performance Assessment Reporting
            System provides an enhanced and more effective capability to monitor the
            timeliness and quality of contractor evaluations. COs must also certify the
            accuracy and completeness of the information entered.

            Internal Control Structure

            In planning and performing our audit, we reviewed management controls related
            to our objectives. We reviewed the Region 7 Contracting Quality Assurance Plan
            along with the EPA’s Contracts Management Manual. There were no previous
            audits of EPA’s administration of the ASW contract.

Results of Review
            Complainant Allegations Not Valid

            The complainant alleged that EPA Region 7 possibly replaced a portion of
            appropriated funds with Recovery Act funds, and used the original funds on
            another project. We found that no funds were replaced on this contract. The
            contract was solely funded with Superfund appropriations and no Recovery Act
            appropriations were obligated on the ASW contract. Secondly, the complainant
            alleged that EPA terminated the contract for the convenience of the government
            and gave it to another contractor that had higher rates. The ASW contract was not
            terminated for convenience; instead, option 2 of the contract was not exercised.
            Further, EPA only procured another contractor because ASW was suspended and
            it was unclear when the suspension would be lifted. Under the circumstances,
            EPA Region 7 acted prudently to ensure that EPA had another contractor in place
            to perform the work. The second contract was awarded with adequate price
            competition to the lowest responsive bidder. ASW submitted a proposal for that
            contract. However, its bid was 59 percent higher than the winning bid.


11-P-0217                                                                                     3
            Region 7 Could Have Used a Less Risky Contract Type

            Region 7 awarded a time and materials (T&M) contract to ASW in September
            2008 for environmental remediation services although a less risky contract type
            would have been a better option. The FAR states that a fixed-type contract is
            suitable, for example, when there is adequate price competition and reasonable
            price comparisons with prior purchases of similar services can be made.
            According to the contracting officer, Region 7 awarded a T&M contract because
            the program office was reluctant to use a fixed-price type contract because there
            were too many environmental unknowns surrounding the site to be cleaned up.
            There also was confusion throughout the acquisition process regarding the type of
            contract to award. Fixed-price type contracts are generally less risky for
            government contracts.

            The FAR identifies circumstances when a fixed-price type contract is feasible.
            FAR Subpart 16.202 states that a firm-fixed price contract is suitable for
            acquiring services when the CO can establish fair and reasonable prices, such as
            when:

                  There is adequate price competition.
                  There are reasonable price comparisons with prior purchases of the same
                   or similar supplies or services when made on a competitive basis or
                   supported by valid certified cost or pricing data.
                  Available cost or pricing information permits realistic estimates of the
                   probable costs of performance.
                  Performance uncertainties can be identified and reasonable estimates of
                   their cost impact can be made, and the contractor is willing to accept a
                   firm-fixed price representing assumption of the risks involved.

            FAR Subpart 16.104 discusses factors the government should consider when
            selecting contract types. Those factors include price competition. Per the FAR,
            effective price competition normally results in realistic pricing, and a fixed-price
            contract is ordinarily in the government’s interest. The FAR states that when
            using a T&M contract, the CO must execute a D&F stating that no other contract
            type is suitable.

            Region 7 could have awarded a less risky contract type. Region 7 obtained this
            type of work before under a previous contract, and as a result, had historical data
            from 2003–2006 on the cost to remediate properties in the same location where
            EPA awarded the T&M contract to ASW. Region 7 had data on the average cubic
            yards per property for work done at the site. In its individual acquisition plan for
            this contract, EPA noted that the risk on the acquisition was somewhat minimized
            by the number of similar projects already completed across the Agency.

            Region 7 expected reasonable price competition when it planned the acquisition.
            In its individual acquisition plan, Region 7 noted that there were a significant


11-P-0217                                                                                          4
            number of small businesses that were eligible to respond. Region 7 stated that
            numerous small businesses existed in the affected area, the region, and across the
            country that were qualified to pursue the work. Finally, Region 7 noted that it
            anticipated adequate competition in the marketplace to ensure an adequate
            number of interested parties. Ten contractors responded to the solicitation, with
            eight providing complete pricing data.

            Region 7 awarded a T&M contract because the program office was reluctant to
            use a fixed-price type contract. According to the CO who awarded the contract,
            Region 7 program staff believed that there were too many unknowns surrounding
            the Madison County site to award a fixed-price contract. However, during the pre-
            bid conference, a prospective contractor asked why Region 7 was awarding a
            T&M contract rather than a fixed-price contract, as a fixed-price contract would
            save the government money. Region 7 responded that there were too many
            unknowns, and paying by the hour would minimize contractors’ risk and place
            some of the risk on EPA to ensure the contractor was efficient and economical.
            However, the claim that there were too many unknowns is not convincing given
            the existence of the historical data (including both the cost of dirt removed and
            average amount of dirt per property) and history with this type of work. Further,
            not long after ASW began work (approximately 4 months), Region 7 executed a
            D&F stating that a fixed-price type contract was the preferred contract type and
            later awarded a fixed rate contract for the same services.

            There also was confusion throughout the process regarding the type of contract to
            be procured. The contract type was not fully understood by regional staff even
            after the contract’s period of performance had expired. For example, during the
            OIG kickoff meeting with Region 7, the program staff thought the contract was an
            indefinite delivery/indefinite quantity (IDIQ) type contract instead of a T&M.
            IDIQ contracts are used to acquire supplies and/or services when the exact times
            and/or exact quantities of future deliveries are not known at the time of contract
            award. Adding to the confusion were the following:

                  EPA’s active contracts list identified the ASW contract as firm-fixed
                   price.
                  The D&F was for the authority to use an IDIQ fixed-rate contract. The
                   D&F also should have stated that no other contract type was suitable but
                   did not.
                  Region 7 awarded the contract using the sealed-bidding process. The FAR
                   states that contracts resulting from sealed bidding shall be firm-fixed price
                   or fixed-price contracts with economic price adjustment.
                  The performance work statement identified the contract as an IDIQ
                   contract.
                  The synopsis of the contract listed in Federal Business Opportunities
                   stated that the contract to be awarded was an IDIQ fixed-rate contract.
                  The solicitation for the contract stated that EPA was contemplating
                   awarding a fixed-rate T&M contract.


11-P-0217                                                                                        5
            Clauses included in the contract were also confusing. According to the CO who
            signed the contract, Region 7 acquired non-commercial services for the contract.
            However, there were clauses in the contract dealing with commercial items, as
            well as change clauses related to fixed-price contracts. None of the contract
            inconsistencies were discovered because although the Region 7 Quality
            Assurance Plan requires a review of pre-award source selection documentation
            prior to award, only the solicitation document was reviewed. We confirmed with
            the Region 7 acquisition branch chief that only the solicitation documentation was
            reviewed as part of the quality assurance plan for the ASW contract.

            Finally, the inexperience of the CO awarding and administering the contract may
            have been a contributing factor to some of the confusion. A senior CO signed the
            contract because the CO responsible for the contract did not have a Level III
            (unlimited) warrant until 18 months after the ASW contract was awarded, but the
            CO was responsible for preparing the D&F and other actions before contract
            award. According to the Region 7 acquisitions branch chief, this was the first site-
            specific contract that the CO had managed.

            The contract type selected by EPA placed unnecessary risk on the government
            and provided little incentive for the contractor to ensure efficient and economical
            performance. In fact, the project staff reported that ASW’s cost per cubic yard
            was double previous work at the site.

            Annual Invoice Review Not Conducted

            The CO did not conduct an annual invoice review for the ASW contract in the
            base or the option period. As noted above, shortly after EPA awarded the contract,
            DOE suspended ASW for submitting invoices containing false certifications.
            EPA’s Contracts Management Manual requires the CO to conduct at least one
            detailed invoice review per year. COs perform these reviews to ensure that the
            contractor and project officers are fulfilling their roles properly and that all issues
            relevant to contract performance are being addressed. After DOE suspended
            ASW, EPA’s risk increased and made performing these reviews even more
            important. The CO cited not having time to review the invoices due to challenges
            with the contract. The CO did suspend costs on 17 of 34 invoices submitted by the
            contractor, but this was based on invoice reviews performed by the project officer,
            and not reviews done by the CO. Region 7 does not have a tracking system to
            ensure that COs conduct the necessary reviews. As a result, Region 7 did not have
            assurances that the contractor and EPA program staff were fulfilling their roles
            properly, nor did the region have assurances that all issues relevant to contract
            performance and funding were being addressed.




11-P-0217                                                                                         6
            Contractor Performance Evaluation Not Conducted

            The CO did not perform an interim contractor performance evaluation after the
            base year. The contract required the CO to complete a contractor performance
            report within 90 days after the end of each 12 months of contract performance, or
            after the last 12 months of contract performance. Considering the concerns
            Region 7 had with the contractor’s performance, an interim evaluation, while not
            required, would have been beneficial. The CO stated that she did not have time to
            perform the contractor performance evaluation after the base year due to the many
            challenges that the CO faced managing the contract. The Region 7 acquisitions
            branch chief stated that the region thought the contract was going to end after the
            base period expired, so an interim report was a lower priority due to resource
            constraints. Although Region 7 did not prepare an evaluation of the contractor’s
            performance, the start of work on the contract was delayed for approximately
            3 months because the contractor could not obtain a payment and performance
            bond. Further, ASW did not inform Region 7 that it had been suspended.
            Region 7 learned of the suspension from another contractor. Finally, the CO
            provided the contractor a three-page document citing examples of performance
            issues that needed to be addressed near the end of the base period. EPA should
            have reported these issues in the performance evaluation. Performance
            evaluations are available to other federal agencies to consider when ordering new
            contracts. Because EPA did not submit a performance evaluation, other potential
            clients are not aware of ASW’s performance on this contract.

Recommendations
            We recommend that the Regional Administrator, Region 7, require the Region 7
            Acquisition and Contracts Management Branch to:

               1.	 Revise the Region 7 peer review checklist to include a review of the pre-
                   award contract file documentation in its entirety prior to award to support
                   the contract type selected.

               2.	 Review active contracts to ensure that proper D&Fs were executed and the
                   contracts contain the correct clauses.

               3.	 Provide clarification to COs, through a briefing, newsletter, etc., on when
                   to use T&M contracts.

               4.	 Provide clarification to COs, through a briefing, newsletter, etc., regarding
                   the requirements of annual invoice reviews.

               5.	 Implement a process to ensure COs conduct annual invoice reviews.

               6.	 Prepare a contractor performance evaluation for ASW and input it into the
                   Contractor Performance Assessment Reporting System as required.


11-P-0217                                                                                        7
Agency Response and OIG Comment
            EPA Region 7 generally agreed with the recommendations in the draft report and
            provided corrective actions or acceptable alternatives, as well as milestone dates.
            The completed and planned actions address the intent of the recommendations in
            the report. Region 7 modified its peer review checklist, rather than the Quality
            Assurance Plan, to include all aspects of the pre-award phase and to ensure the
            entire contract file is reviewed prior to award. We modified our final report
            recommendation accordingly. The region is in the process of conducting a full
            review of all active contracts. This is anticipated to be completed by December
            31, 2011. Additionally, the Regional Acquisition Manager held discussions with
            the Acquisition and Contracts Management Section staff regarding the importance
            of identifying the correct contract type vehicle along with providing further
            training opportunities for identifying contract types, including T&M contracts, on
            April 13, 2011, and during the summer of 2011. Similarly, discussions and
            refresher training have been held on conducting invoice reviews. Region 7
            implemented a process to ensure COs conduct annual invoice reviews and
            modified the Quality Assurance Plan Checklist to include a review of the CO
            annual invoice review. Finally, in responding to the last recommendation,
            Region 7 is in the process of conducting a contractor performance evaluation for
            ASW and expects it to be completed by September 30, 2011.




11-P-0217                                                                                    8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                            Actual/Planned
    Rec.    Page                                                                                             Completion      Claimed    Agreed-To
    No.      No.                       Subject                          Status1      Action Official             Date        Amount      Amount

     1        7    Require the Region 7 Acquisition and Contracts         C       Regional Administrator,     1/28/2011
                   Management Branch to revise the Region 7 peer                        Region 7
                   review checklist to include a review of the pre-
                   award contract file documentation in its entirety
                   prior to award to support the contract type
                   selected.

     2        7    Require the Region 7 Acquisition and Contracts         O       Regional Administrator,     12/31/2011
                   Management Branch to review active contracts to                      Region 7
                   ensure that proper D&Fs were executed and the
                   contracts contain the correct clauses.

     3        7    Require the Region 7 Acquisition and Contracts         C       Regional Administrator,     04/13/2011
                   Management Branch to provide clarification to                        Region 7
                   COs, through a briefing, newsletter, etc., on when
                   to use T&M contracts.

     4        7    Require the Region 7 Acquisition and Contracts         C       Regional Administrator,     03/09/2011
                   Management Branch to provide clarification to                        Region 7
                   COs, through a briefing, newsletter, etc.,
                   regarding the requirements of annual invoice
                   reviews.

     5        7    Require the Region 7 Acquisition and Contracts         C       Regional Administrator,     03/16/2011
                   Management Branch to implement a process to                          Region 7
                   ensure COs conduct annual invoice reviews.

     6        7    Require the Region 7 Acquisition and Contracts         O       Regional Administrator,     9/30/2011
                   Management Branch to prepare a contractor                            Region 7
                   performance evaluation for ASW and input it into
                   the Contractor Performance Assessment and
                   Reporting System as required.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0217                                                                                                                                           9
                                                                                    Appendix A

                   Agency Response to Draft Report

                                           Apr 01 2011

MEMORANDUM

SUBJECT:	 Hotline Allegations Unsubstantiated, but Region 7 Contract Administration and
          Award Issues Identified,
          Draft Report No. OA-FY10-0253, dated March 4, 2011

FROM:          Karl Brooks
               Regional Administrator

TO:	           Arthur A. Elkins, Jr.
               Inspector General

        Thank you for the opportunity to review and respond to the Office of Inspector General
(OIG) subject draft report. As you will see below, Region 7 generally concurs with OIG
recommendations. Region 7 implemented, or is in the process of implementing all
recommendations, although with slight modifications to recommendations 1 and 2. However,
there are some factual inaccuracies in the report we feel require clarification.

        The draft report states a Time and Materials (T&M) contract was awarded because
Region 7 Superfund program staff was resistant to awarding a fixed price contract. This stand
alone statement does not adequately portray the comprehensive decision process Region 7’s
Superfund program staff and Region 7’s Acquisition and Contracts Management Section
(ACMS) staff used to determine contract type. The statement that the program technical staff
was resistant should be expanded to say they were ultimately resistant because they did not have
a high degree of confidence and reliance on the available information and that there were too
many environmental unknowns to have a fixed price contract.

        Contracting Officers (COs) understand there are complexities and environmental
unknowns associated with each site specific location, and consideration is given to the technical
aspects of the requirement and the opinions of the program technical staff as to possible methods
for pricing when crafting a suitable contract. However, the final decision, utilizing all
procurement information, is that of the CO and it remains the opinion of the CO, the Senior CO
and the Regional Acquisition Manager, that the appropriate contract type was utilized.

        A second inaccuracy is that the draft report places much emphasis on a fixed price follow
on contract. Although the Determination and Findings (D&F) for the follow on contract states
fixed price, the contract is actually an indefinite quantity. The follow on contract contains fixed
unit prices for estimated quantities. The D&F is being corrected.


11-P-0217                                                                                        10
        Lastly, the draft report asserts the Region 7 Acquisitions Branch Chief stated Region 7
thought the contract was going to end so an interim report would not be necessary. This
statement does not reflect the full discussion. The Regional Acquisition Manager is fully aware
of the importance and requirement to complete contractor evaluations at specific intervals and
within specific timeframes, and explained the performance evaluation for ASW had become a
lower priority due to workload constraints.

The following provides you with a status of corrective actions.

OIG Recommendation 1:

Revise the Region 7 Quality Assurance Plan to include a review of the pre-award contract file
documentation in its entirety prior to award to support the contract type selected.

Region 7 Corrective Action:

The recommendation is to revise the Region 7 Quality Assurance Plan (QAP) and though this
appears to be a plausible recommendation, the QAP is designed to evaluate the effectiveness of
contract actions which have occurred.

To ensure the entire contract file is reviewed prior to award, Region 7 has modified the Peer
Review Checklist, to now include all aspects of the pre-award phase. Peer reviewers are
required to annotate that all documents are present and have been reviewed, prior to a contact
award.

OIG Recommendation 2:

Review active contracts to ensure that proper D&Fs were executed and the contracts contain the
correct clauses.

Region 7 Corrective Action:

Region 7 has 46 active contracts. The Regional Acquisition Manager has implemented a process
to ensure a full review of each contract. Seven contracts are currently being reviewed and the
remaining reviews are anticipated to be completed by December 31, 2011. A record of findings
and corrective actions will be retained.

OIG Recommendation 3:

Provide clarification to COs, through a briefing, newsletter, etc., on when to use T&M contracts.

Region 7 Corrective Action:

As soon as the confusion between the contract documents was identified, the Regional
Acquisition Manager immediately began discussions with staff on contract types and has



11-P-0217                                                                                        11
continued to focus on the importance of identifying and supporting the appropriate contract type
vehicle.

On April 13, 2011, Region 7’s ACMS staff will receive refresher training on T&M contracts.
This training will include instruction and review of Federal Acquisition Regulation Part 16, and
discussion of the various contract types. Further, the Office of General Counsel is presenting a
training session in Region 7 on contract types; this training is tentatively scheduled for summer
2011.

OIG Recommendation 4:

Provide clarification to COs, through a briefing, newsletter, etc., regarding the requirements of
annual invoice reviews.

Region 7 Corrective Action:

The Regional Acquisition Manager held discussions with ACMS staff reminding them of the
requirement to conduct invoice reviews, immediately after discussions with OIG. Also, as
mentioned to OIG, Region 7 acknowledges the annual invoice review was not performed for the
ASW contract; however, the annual invoice reviews are and were performed on other contracts.

On March 9, 2011, the Region 7 ACMS staff received refresher training on the Office of
Acquisition Management (OAM) guidance for conducting annual invoice reviews. All staff
members received a hardcopy of OAM’s invoice review guidance.

OIG Recommendation 5:

Implement a process to ensure COs conduct annual invoice reviews.

Region 7 Corrective Action:

Region 7 has developed and implemented a process designed to ensure that COs conduct annual
invoice reviews. Region 7’s Quality Assurance Plan Checklist was modified to include a review
of the CO annual invoice review.

OIG Recommendation 6:

Prepare a contractor performance evaluation for ASW and input it into the Contractor
Performance Assessment Reporting System as required.

Region 7 Corrective Action:

The contractor performance evaluation for ASW is underway. Input in the Contractor
Performance Assessment Reporting System is anticipated to be complete by September 30, 2011.




11-P-0217                                                                                           12
       Should you have any questions concerning Region 7’s corrective actions, please contact
Lee Thomas, Regional Acquisition Manager, at (913) 551-7739, or Kathy Finazzo, Regional
Audit Follow-Up Coordinator, at (913) 551-7833.




11-P-0217                                                                                   13
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Regional Administrator, Region 7
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Regional Acquisition Manager, Region 7
Audit Followup Coordinator, Region 7
Audit Followup Coordinator, Office of Acquisition Management




11-P-0217                                                                           14
